No. __________

In the Supreme Court of the United States
JALIL LEMASON ROBINSON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

CERTIFICATE OF SERVICE

I, Ryan A. Ray, a member of the Bar of this Court, in accordance with Rule
29, hereby certify that on this 30th day of June, 2021, I served a copy of
Petitioner’s Petition for Writ of Certiorari and attached Motion for Leave to
Proceed In Forma Pauperis via electronic service and also served the same by
U.S. mail, with first-class postage prepaid, addressed to counsel for
respondent as follows:
J. Bishop Grewell
Assistant U.S. Attorney
1801 California Street
Suite 1600
Denver, CO 80202
Telephone: (303) 454-0100
Bishop.grewell@usdoj.gov

